Memorandum from the Office of the Inspector General



June 28, 2007

Paul R. LaPointe, WT 3A-K

FINAL AUDIT 2007-020F – REVIEW OF SURPLUS MATERIAL



As part of our annual audit plan, we reviewed the processes related to identifying and
managing surplus materials to determine if surplus material is identified and managed in
accordance with TVA policies and procedures. In summary, we found:

• Inconsistencies in the methods used to identify surplus.
• Surplus inventory overages totaling $58,756 and inventory shortages totaling $617,524
     at the Hartsville facility.
• Receipts of surplus material redeployed from Hartsville to a facility are not being
     completed or cancelled in PassPort in a timely manner.
• Discrepancies between actual bids and awarded bids for the April 2006 sealed bid
     auction.

We recommend (1) Procurement management ensure compliance with process
documentation related to identification of surplus materials,1 (2) Investment Recovery (IR)
personnel ensure the accuracy and completeness of the information in PassPort related to
the locations and quantities of the surplus material at the Hartsville facility, (3) Procurement
management ensure transfers are completed in PassPort in a timely manner, and (4) IR
management ensure the accuracy and completeness of the sealed bid process.

Procurement management stated they had (1) received confirmation from each Site
Procurement Manager that they are complying with process documentation related to
identification of surplus material, (2) corrected all items addressed in the draft audit report
related to accuracy of surplus inventory, (3) planned to issue a reminder to Site Procurement
Managers regarding the timely completion of transfers in PassPort, and (4) established
guidelines to ensure the completeness and accuracy of the sealed bid process. See
Appendix B for TVA management’s complete response.




1
    During our review, TVA Procurement management reiterated to Site Procurement Managers the need to
    comply with process documentation and policy requirements by using the designated reports to identify
    surplus.
Paul R. LaPointe
Page 2
June 28, 2007



BACKGROUND

TVA’s Procurement organization has responsibility for identifying and managing surplus
materials. TVA Procurement’s Materials Management Services is responsible for
identifying potential surplus material and utilizing surplus when available. Procurement’s
IR group is responsible for the management and disposition of surplus material. Materials
Management personnel at each site are responsible for managing site inventory, including
identifying potential items for surplus and utilizing surplus materials when available. Plant
personnel determine if the item is surplus material based on the criteria in TVA’s Inventory
Management Policy. Surplus material is sent by the plant to the Hartsville Investment
Recovery Center (Hartsville). When surplus material arrives at Hartsville, the IR
personnel count and receive the material and then enter the appropriate information in
PassPort. Upon receipt,2 IR personnel develop a strategy for disposing of the material to
reduce inventory carrying costs. Methods of material disposition include redeployment,
selling, donating, and disposing.

As of February 2007, TVA Nuclear reported write-offs totaling $438,000 and
redeployments totaling $748,000 of surplus material. Fossil facilities reported write-offs
and redeployments of $721,000 and $614,000, respectively, during the same period.
Records of TVA’s surplus materials are maintained in TVA’s Inventory Management
System, PassPort. Based on information in PassPort as of February 21, 2007, TVA’s
surplus material3 at Hartsville was approximately $40 million.

FINDINGS AND RECOMMENDATIONS

We reviewed processes related to identifying and managing surplus materials to
determine if surplus material is identified and managed in accordance with TVA policies
and procedures. In summary, we found:

• Inconsistencies in the methods used to identify surplus.
• Surplus inventory overages in the amount of $58,756 and shortages in the amount of
  $617,524 at Hartsville.
• Receipts of surplus material redeployed from Hartsville to a facility are not being
  completed or cancelled in PassPort in a timely manner.
• Discrepancies between the actual bids and the awarded bids for the April 2006 sealed
  bid auction.




2
    The responsibility of receiving surplus material in PassPort transferred from plant personnel to IR personnel
    in April 2006.
3
    Surplus material is valued based on average unit price (AUP).
Paul R. LaPointe
Page 3
June 28, 2007



IDENTIFICATION OF POTENTIAL SURPLUS MATERIALS

We visited Colbert Fossil Plant (COF), Cumberland Fossil Plant (CUF), Watts Bar Nuclear
Plant (WBN), and Widows Creek Fossil Plant (WCF) and observed various methods used
to identify surplus material. For example, COF and WCF relied on walk-downs,4 craft
labor personnel, and/or equipment replacement to identify surplus material, while CUF
and WBN relied on a report which identifies potential surplus based on activity. Process
documentation for the Manage Site Inventory process requires the use of a “report of no
receipt or issue by last activity date” to identify potential surplus material. During our
review, TVA Procurement management reiterated to Site Procurement Managers the
need to comply with process documentation and policy requirements by using the
designated reports to identify surplus.

SURPLUS INVENTORY

As of February 21, 2007, surplus materials at Hartsville totaled approximately $40 million
for more than 28,589 Catalog Identification Numbers (CAT IDs) as listed in PassPort.
Material Management System (MMS) 3.0 – Inventory Accuracy Policy provides guidance
for “ensuring the accuracy of TVA materials and supplies inventory.” We conducted a
physical inventory of 134 surplus CAT IDs totaling approximately $5.2 million based on the
stratified sample described in the attachment. We identified $58,756 in material overages
and $617,524 in material shortages. We were unable to determine the correct quantity for
six of the 134 selected CAT IDs totaling $1,152,580 because the material was not properly
labeled. We also found 24 CAT IDs with a value of $726,901 that were stored in a
location other than that listed in PassPort. Based on our sample, we are 97.5 percent
confident that quantities and/or locations of at least 16.4 percent of CAT IDs in PassPort
are incorrect. We found that 21 CAT ID location errors were subsequently corrected in
PassPort. The remaining three were shown as either transferred to another facility or sold
and therefore are no longer considered an issue.

PURCHASES OF PREVIOUSLY SURPLUSED INVENTORY

Prior to purchasing new material, TVA plant personnel are required by MMS 2.0 – TVA
Inventory Management Policy to utilize surplus material to satisfy needs for material
requests. We tested compliance with this policy by selecting a sample of CAT IDs listed in
PassPort as surplus inventory at Hartsville. We compared 1245 of the CAT IDs
inventoried above to purchases listed in PassPort for the same materials. We found
16 CAT IDs that had been previously declared surplus were later purchased. Of those
16 CAT IDs, four were purchased while available at Hartsville. However, the purchases
made up less than one percent of the total value of sampled inventory and were
considered immaterial.




4
    Engineering and maintenance personnel walk through storage areas to identify surplus material based on
    their professional experience.
5
    We did not select the 10 CAT IDs with a value of $0.
Paul R. LaPointe
Page 4
June 28, 2007



TRANSFERS OF SURPLUS MATERIALS

During our physical inventory at Hartsville, we noted CAT IDs in an incomplete transfer
status. MMS 1.0 – Material Receipt/Inspection, Material Storage and Handling, Material
Issue, Control, and Return Policy states “the receipt transaction should be entered into
PassPort within fifteen (15) working days of the dock date, including unsatisfactory receipt
inspections (OSD&D).” We selected ten items with a total value greater than $10,000
each to determine the length of time the material had been in transfer status. We found all
ten were redeployments from Hartsville to a facility. Two had been in transfer status since
fiscal year (FY) 2005, two since FY06, and the remaining six had been in transfer status
since December 2006. We contacted the appropriate Site Procurement Manager to
determine status and obtain explanation. Specifically, we found:

•     Six of the items with a total value of more than $500,000 related to an incomplete
      transfer to Kingston Fossil Plant (KIF). The transfer was originally initiated in
      December 2006; however, the e-mail requesting the material be transferred was dated
      July 2006. In September 2006, TVA’s Chief Financial Officer’s organization changed
      its SPP 13.8 Accounting for Materials and Supplies Inventories policy to allow items to
      be redeployed at $0 versus the total value. When the transfer was completed in
      March 2007, KIF’s inventory was affected by $16 instead of $500,000 which would
      have been the case if the transfer was completed in July 2006.
•     Two items were not received at Browns Ferry Nuclear Plant (BFN) due to quantity
      discrepancies. According to the Manager Warehouse Operations, BFN, the items
      were probably originally sent to Hartsville in incomplete condition. One of the two
      transfers was initiated in April 2005 and the other was initiated in August 2005.
•     One item could not be received at Sequoyah Nuclear Plant (SQN) because the kit
      included a lubricant which was not on the approved chemical list for SQN. The
      transfer was initiated in December 2005 and is now being cancelled.
•     The remaining item was not received at BFN because it appeared to be damaged. The
      transfer was initiated in September 2006.

We also noted transfers to Hartsville will affect the FY07 WP Net Margin indicator for each
fossil plant. However, redeployments do not impact the FY07 Net Margin indicator due to
the policy change allowing items to be redeployed at $0 versus the total value.

DISPOSITION OF SURPLUS MATERIAL

TVA’s Disposal of Surplus policy “establishes a guideline and purpose on how Investment
Recovery (IR) disposes of TVA surplus.” The policy states the two most advantageous
methods of disposition are redeployment (discussed above) and selling. Periodically, TVA
IR will dispose of surplus inventory through a sealed bid auction which is available to the
public. All acceptable bids are documented by IR personnel. When bidding is closed, IR
personnel award the lots to the highest bids.7 We reviewed the documentation related to
the auction completed in April 2006 and found:

6
    As of the date of the transfer, PassPort would not accept a transfer at $0; therefore, $1 was used.
7
    IR reserves the right to reject any bid.
Paul R. LaPointe
Page 5
June 28, 2007



• Two auction lots were awarded to a bidder who had not submitted a bid for the lots. As
  a result, no sale occurred. The actual winning bids for the two lots totaled $125;
  however, they were not awarded to those bidders due to the error.
• Three bids were not documented by IR personnel. One of the three bids was a winning
  bid that would have resulted in an additional $43.48 being received for the lot.
• One instance where a tie for the highest bid occurred. One of the bidders was
  awarded the bid; however, we found no justification for awarding the lot to one bidder
  over the other.

RECOMMENDATIONS

We recommend (1) Procurement management ensure compliance with process
documentation related to identification of surplus materials; (2) IR personnel ensure the
accuracy and completeness of the information in PassPort related to the locations and
quantities of the surplus material at the Hartsville facility; (3) Procurement management
ensure transfers are completed in PassPort in a timely manner; and (4) IR management
ensure the accuracy and completeness of the sealed bid process.

Procurement Management's Response and Our Evaluation – In their response to our
draft audit report (see Appendix B), Procurement management concurred with all of our
recommendations. Specifically, Procurement management stated:

(1) Written confirmation has been received from each Site Procurement Manager that
    they are complying with process documentation related to identification of surplus
    material. Procurement management has established a follow-up date to ensure
    compliance.

(2) All items addressed in the draft audit report related to location and quantity have been
    corrected by IR. According to Procurement management, the items identified in the
    report were sent to Hartsville prior to FY06. Prior to FY06, surplus material sent to
    Hartsville by TVA plants was not “procedurally required to be verified by IR.”
    Procurement management stated that the “Hartsville Site Plan,” initiated in FY06 and
    scheduled to be completed in FY08, will correctly identify locations and quantities of
    all material located at Hartsville.

(3) A reminder will be issued to Site Procurement Managers regarding the timely
    completion of transfers in PassPort.

(4) Guidelines have been established to ensure the completeness and accuracy of the
    sealed bid process.
Paul R. LaPointe
Page 6
June 28, 2007



We agree with the actions planned and taken. However, we believe the accuracy of
inventory related to recommendation number 2 should not have been significantly
impacted by procedural changes.

                      -       -      -       -      -       -      -

Your written comments, which addressed your management decision and actions planned
or taken, have been included in the report. Please notify us when final action is complete.
Our objective, scope, and methodology are included in Appendix A.

Information contained in this report may be subject to public disclosure. Please advise us
of any sensitive information in this report which you recommend by withheld. Recipients
of this report are responsible for safeguarding it to prevent publication or other improper
disclosure. If you have any questions, please contact Kristi U. Reynolds, Senior Auditor,
at (865) 632-4021 or Lisa H. Hammer, Director (Acting), Financial and Operational Audits,
at (865) 632-4731. We appreciate the courtesy and cooperation received from your staff
during the audit.




Ben R. Wagner
Assistant Inspector General
 (Audits and Inspections)
ET 3C-K

KUR:SDB
Attachments
cc (Attachments):
     William H. Bonham, WT 3A-K
     Tom D. Kilgore, WT 7B-K
     John E. Long, Jr., WT 7B-K
     Richard W. Moore, WT 4C-K
     Emily J. Reynolds, OCP 1L-NST
     Michael W. Metcalf, LP 4T-C
     OIG File No. 2007-020F
                                                                                                APPENDIX A
                                                                                                 Page 1 of 1

                          OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine if surplus material is identified and managed in accordance
with TVA policies and procedures. Our scope included TVA material identified as surplus in
PassPort as of February 21, 2007. In order to achieve our objective, we:

• Gained an understanding of the processes for identifying and managing surplus materials
  by (1) obtaining and reviewing MMS 1.0 – Material Receipt/Inspection, Material Storage
  and Handling, Material Issue, Control, and Return Policy; MMS 2.0 – TVA Inventory
  Management Policy; MMS 3.0 – Inventory Accuracy Policy; and 2.09 Investment
  Recovery – Process Surplus Material; and (2) interviewing IR and Materials Management
  personnel.
• Judgmentally selected three fossil plants and one nuclear plant1 and obtained an
  understanding of how inventory is surplused at those sites by (1) interviewing site Materials
  Management personnel, (2) obtaining and reviewing reports used for identifying potential
  surplus, and (3) obtaining and reviewing supporting documentation for identification of
  surplus material.
• Conducted a physical inventory of sampled surplus material listed in PassPort at Hartsville
  as of February 21, 2007. We selected three samples of Catalog Identification Numbers
  (CAT IDs) totaling approximately $5.2 million for testing as follows:
  − Greater than $100,000 – We selected all 26 CAT IDs with a total value greater than
     $100,000 as recorded in PassPort.
  − Between $1,000 and $100,000 – We randomly selected 98 CAT IDs from the universe
     based on sampling criteria that provided 95 percent confidence the exception rate does
     not exceed 3 percent.
  − Equal to zero2 – We judgmentally selected 10 CAT IDs based on similar name
     descriptions as those in the “greater than $100,000” sample noted above.
• Determined if transfers to and from Hartsville were completed in a timely manner by
  obtaining transfer reports and explanation for any outstanding items with a total value
  greater than $10,000.
• Selected a sample of CAT IDs listed in PassPort as surplus inventory at Hartsville to verify
  no purchases had been made.
• Reviewed documentation related to the April 2006 sealed bid auction to confirm the highest
  bids were awarded appropriately.

This audit was performed in accordance with generally accepted government auditing
standards. Although we did not test for compliance with laws and regulations, nothing came
to our attention during the audit that indicated noncompliance with laws and regulations.


1
    Judgmentally selected based on (1) no issue, no receipt, and (2) quantity overmax reports generated from PassPort.
2
    In July 2001, the Materials Management System (MAMS) was converted to PassPort. The average unit price
    did not transfer from MAMS into PassPort. Instead, the average unit price in PassPort defaulted to zero.
APPENDIX B
 Page 1 of 2
APPENDIX B
 Page 2 of 2
